      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




July 27, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicaid Payments for Services Provided Under New Jersey’s Section
                1915(c) Community Care Waiver by Elwyn New Jersey From January 1, 2005,
                Through December 31, 2007 (A-02-09-01033)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
services provided under New Jersey’s section 1915(c) Community Care Waiver at Elwyn New
Jersey. We will issue this report to the New Jersey Department of Human Services within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01033.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
July 28, 2011

Report Number: A-02-09-01033

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Provided Under
New Jersey’s Section 1915(c) Community Care Waiver by Elwyn New Jersey From
January 1, 2005, Through December 31, 2007. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-09-01033 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS
FOR SERVICES PROVIDED UNDER
NEW JERSEY’S SECTION 1915(C)
 COMMUNITY CARE WAIVER BY
   ELWYN NEW JERSEY FROM
  JANUARY 1, 2005, THROUGH
     DECEMBER 31, 2007



                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-02-09-01033
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

The New Jersey Department of Human Services (State agency) administers New Jersey’s (the
State) Medicaid program and provides oversight for compliance with Federal requirements. The
State’s Community Care Waiver (CCW) program allows the State agency to claim Medicaid
reimbursement for HCBS provided to mentally retarded or developmentally disabled individuals
who would otherwise require institutionalization in an Intermediate Care Facility for the
Mentally Retarded (ICF/MR).

The State agency administers the CCW program through its Division of Developmental
Disabilities (division). Under the CCW program, each beneficiary is required to have a plan of
care (individual habilitation plan) and a level-of-care assessment completed every 12 months.
For an individual to be assessed eligible for the CCW program, a qualified mental retardation
professional must certify that the beneficiary is assessed to need an ICF/MR level of care. The
division must maintain documentation of each habilitation plan and assessment for at least
3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $1.4 billion for services provided under the CCW program. During this period, Elwyn
New Jersey (Elwyn), a CCW program service provider located in Vineland, New Jersey,
received Medicaid reimbursement for 11,640 beneficiary-months totaling $69.7 million
($34.8 million Federal share). A beneficiary-month includes all CCW program services for a
State beneficiary for 1 month.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for CCW program services provided by Elwyn complied with certain Federal and State
requirements.




                                                i
SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some CCW program services
provided by Elwyn that did not comply with certain Federal and State requirements. Of the 110
beneficiary-months in our random sample, the State agency properly claimed Medicaid
reimbursement for all CCW program services in 64 beneficiary-months. However, the State
agency claimed Medicaid reimbursement for services that were not allowable for the remaining
46 beneficiary-months. Specifically, services totaling $55,944 (Federal share) in 46
beneficiary-months did not comply with certain Federal and State requirements. Of these 46
beneficiary-months, 7 contained more than 1 deficiency.

The claims for unallowable services were made because: (1) Elwyn and the division did not
ensure that they only claimed for documented, allowable CCW program services, (2) the division
did not ensure and document that all beneficiaries were assessed and certified to require an
ICF/MR level of care, and (3) the division did not ensure that CCW program services were
provided only to beneficiaries with completed and approved individual habilitation plans.

Based on our sample results, we estimated that the State agency improperly claimed $903,375 in
Federal Medicaid reimbursement for CCW program services provided by Elwyn that did not
comply with certain Federal and State requirements during calendar years 2005 through 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $903,375 to the Federal Government;

   •   require Elwyn and the division to ensure that they only claim for documented, allowable
       CCW program services;

   •   require the division to ensure and document that all CCW program beneficiaries
       approved for services have been assessed and certified to need an ICF/MR level of care;
       and

   •   require the division to ensure that CCW program services are provided only to
       beneficiaries for whom there is a completed and approved individual habilitation plan.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining findings and recommendations. For the first recommendation, the State agency
requested that we remove three sample items and recalculate the refund amount. For those three
sample claims, the State agency indicated that the corresponding case file contained supporting
documentation for a period after our sampled beneficiary-month. The State agency said it would


                                               ii
be unreasonable to assume that a beneficiary would be ineligible for CCW program services
before the documented service period.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency’s comments appear in their entirety as
Appendix D.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Home and Community-Based Services Waivers ............................................... 1
              New Jersey’s Community Care Waiver Program .............................................. 1
              Elwyn New Jersey.............................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES ......... 5
              Services Not Documented.................................................................................. 5
              Services Not Provided........................................................................................ 5
              Level-of-Care Assessment Not Documented..................................................... 6
              Individual Habilitation Plan Not Available ....................................................... 6

          CAUSES OF UNALLOWABLE CLAIMS .................................................................. 6

          RECOMMENDATIONS ............................................................................................... 7

          STATE AGENCY COMMENTS .................................................................................. 7

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
              BENEFICIARY-MONTH

          D: STATE AGENCY COMMENTS




                                                                     iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The New Jersey Department of Human Services (State
agency) administers New Jersey’s (the State) Medicaid program and provides oversight for
compliance with Federal requirements.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than an
institutional setting.

Section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to recipients who have been determined would, in the absence of
such services, require the Medicaid covered level of care provided in a hospital, nursing facility,
or intermediate care facility for persons with mental retardation. Pursuant to section 1915(c)(1)
of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)), HCBS must be furnished under a
written plan of care subject to approval by each State’s State agency. In addition, Federal
regulations (42 CFR § 441.302(c)) require a State agency to provide for an initial evaluation of
the recipient’s need for the level of care that would be provided in an institution unless the
individual receives HCBS. The regulations further require at least annual reevaluations of each
recipient receiving HCBS.

According to section 4442.6 of CMS’s State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. In addition, the plan of care must specify the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available under a
section 1915(c) waiver for HCBS furnished without a written plan of care.

New Jersey’s Community Care Waiver Program

The State’s HCBS waiver program includes the Community Care Waiver (CCW) program,
which is administered by the State agency through its Division of Developmental Disabilities
(division). The division is responsible for the implementation and operation of the CCW



                                                 1
program. 1 The CCW program allows the State agency to claim Medicaid reimbursement on a
fee-for-service basis for HCBS provided to mentally retarded or developmentally disabled
individuals who would otherwise require institutionalization in an Intermediate Care Facility for
the Mentally Retarded (ICF/MR). Most of the CCW program services are provided through
State contracts with private organizations or individuals. 2

According to the State’s waiver agreement with CMS, to be eligible for the State’s CCW
program, a beneficiary must be a Medicaid recipient, be diagnosed as mentally retarded or
developmentally disabled, and be assessed to need an ICF/MR level of care. In addition, each
beneficiary is required to have a plan of care (individual habilitation plan) and a level-of-care
assessment completed every 12 months. For the assessment, a qualified mental retardation
professional, who may be employed by either the service provider or the division, must certify
that the beneficiary was assessed to need an ICF/MR level of care. The division must maintain
documentation of each individual habilitation plan and assessment for at least 3 years. The State
agency must also ensure financial accountability for funds expended for HCBS, as well as
maintain appropriate financial records documenting the cost of services provided under the
waiver.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $1.4 billion for services provided under the CCW program.

Elwyn New Jersey

Elwyn New Jersey (Elwyn), located in Vineland, New Jersey, provides individual support, day
programs, and supported employment services for people with developmental disabilities and
medical challenges. Elwyn was the largest provider of services under the State’s CCW program
during calendar years 2005 through 2007. During this period, Elwyn received Medicaid
reimbursement for CCW program services totaling $69.7 million ($34.8 million Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for CCW program services provided by Elwyn complied with certain Federal and State
requirements.




1
 According to its waiver agreement with CMS, the State agency’s Division of Medical Assistance and Health
Services has “final responsibility” for the oversight of the program.
2
 The CCW program includes case management, respite care, day habilitation (assistance with improvement in
self-help, socialization, and adaptive skills in a nonresidential setting), supported employment, environmental and
vehicle adaptation, personal emergency response systems, individual support (in a residential facility or a
beneficiary’s home), and integrated therapies services.


                                                          2
Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
by Elwyn under the CCW program during calendar years 2005 through 2007. During this
period, the State agency claimed $69.7 million ($34.8 million Federal share) for services
provided by Elwyn in 11,640 beneficiary-months. 3 We will be issuing a separate report
(A-02-09-01034) on CCW service claims submitted by Bancroft NeuroHealth from January 1,
2005, through December 31, 2007.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the services that Elwyn provided and claimed for reimbursement.

We did not assess the State agency’s overall internal control structure or all the internal controls
over the CCW program. Rather, we limited our review of internal controls to those applicable to
our objective. We reviewed Elwyn’s and the division’s internal controls for documenting CCW
program services billed and claimed for reimbursement. We did not assess the appropriateness
of HCBS payment rates.

We performed our fieldwork at Elwyn’s offices in Vineland, New Jersey, and at the division’s
offices in Trenton, New Jersey.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
        guidance;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with State agency officials to discuss the State agency’s administration and
        monitoring of the CCW program;

    •   interviewed Elwyn and division officials regarding their CCW program policies and
        procedures;

    •   reconciled the CCW program services claimed for Federal reimbursement by the State
        agency on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program, to the population of all payments for CCW program
        services made to providers statewide obtained from the State’s Medicaid Management
        Information System for the quarter April 1, 2007, through June 30, 2007;



3
 A beneficiary-month includes all CCW program services for a beneficiary for 1 month. A beneficiary-month
could include multiple services.


                                                      3
   •   obtained from the State’s Medicaid Management Information System a sampling frame
       of 11,640 beneficiary-months with CCW program services for which Elwyn claimed
       reimbursement totaling $69.7 million ($34.8 million Federal share) from January 1, 2005,
       through December 31, 2007;

   •   selected a stratified random sample of 110 beneficiary-months from the sampling frame
       of 11,640 beneficiary-months and for each beneficiary-month:

       o determined whether the beneficiary was assessed by a qualified mental retardation
         specialist to be eligible for the CCW program,

       o determined whether CCW program services were provided in accordance with an
         approved individual habilitation plan,

       o determined whether the staff members who provided the services met qualification
         and training requirements,

       o determined whether documentation supported the CCW program services billed, and

       o identified services that were not provided or documented in accordance with Federal
         and State requirements;

   •   estimated the unallowable Federal Medicaid reimbursement paid in the total population
       of 11,640 beneficiary-months; and

   •   provided the results of our review to Elwyn officials.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some CCW program services
provided by Elwyn that did not comply with certain Federal and State requirements. Of the 110
beneficiary-months in our random sample, the State agency properly claimed Medicaid
reimbursement for CCW program services in 64 beneficiary-months. The State agency claimed
Medicaid reimbursement for services that were not allowable for the remaining 46
beneficiary-months. Specifically, services totaling $55,944 (Federal share) in 46
beneficiary-months did not comply with certain Federal and State requirements. Of the 46



                                                4
beneficiary-months, 7 contained more than 1 deficiency. Appendix C contains a summary of
deficiencies, if any, identified for each sampled beneficiary-month.

The claims for unallowable services were made because: (1) Elwyn and the division did not
ensure that they only claimed for documented, allowable CCW program services, (2) the division
did not ensure and document that all beneficiaries were assessed and certified to require an
ICF/MR level of care, and (3) the division did not ensure that CCW program services were
provided only to beneficiaries with completed and approved individual habilitation plans.

Based on our sample results, we estimated that the State agency improperly claimed $903,375 in
Federal Medicaid reimbursement for CCW program services provided by Elwyn that did not
comply with certain Federal and State requirements during calendar years 2005 through 2007.

UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES

Services Not Documented

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary to
disclose fully the extent of the services provided to individuals receiving assistance under the
State plan. Pursuant to Office of Management and Budget Circular A-87, Cost Principles for
State, Local, and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), costs must
be adequately documented to be allowable under Federal awards. According to section 2500.2
of CMS’s State Medicaid Manual, States are to report only expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and that is immediately available
when the claim is filed. 4

For 32 beneficiary-months, the State agency claimed reimbursement for some services that were
not adequately documented. For these services, Elwyn did not maintain documentation to
support the services billed.

Services Not Provided

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary to
disclose fully the extent of the services provided to individuals receiving assistance under State
plans. According to section 2497.1 of CMS’s State Medicaid Manual, Federal financial
participation is available only for allowable actual expenditures made on behalf of eligible
recipients for covered services rendered by certified providers.




4
  Supporting documentation includes as a minimum the following: date of service; name of recipient; Medicaid
identification number; name of provider agency and person providing the service; nature, extent, and units of
service; and place of service.



                                                        5
For 12 beneficiary-months, the State agency claimed Federal reimbursement for some services
that were not provided. The division submitted claims for reimbursement on behalf of Elwyn for
both respite care and community support services. However, Elwyn’s records indicated that the
community support services were not provided.

Level-of-Care Assessment Not Documented

Pursuant to section 1915(c)(1) of the Act and 42 CFR § 441.301(b)(1)(iii), HCBS are to be
provided only to a recipient who would, in the absence of these services, need the Medicaid level
of care provided in a hospital, nursing facility, or ICF/MR. Federal regulations (42 CFR
§§ 441.302(c) and 441.303(c)) require a State agency to provide for an initial evaluation and
periodic reevaluations, at least annually, of the recipient’s need for the level of care that would
be provided in an institution unless the individual receives HCBS. According to the State’s
waiver agreement with CMS, an eligible CCW program beneficiary must be assessed and
certified by a qualified mental retardation professional to need an ICF/MR level of care every 12
months, and the division must maintain documentation of the assessments for at least 3 years.

For six beneficiary-months, the State agency claimed reimbursement for CCW program services
provided to beneficiaries for whom the ICF/MR level-of-care assessment was not approved by a
qualified mental retardation professional.

Individual Habilitation Plan Not Available

Pursuant to section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)),
HCBS are to be provided only under a written plan of care subject to approval by a State
Medicaid agency. Pursuant to the State’s waiver agreement with CMS, an eligible CCW
program beneficiary must have an individual habilitation plan completed by a qualified mental
retardation professional every 12 months, and the division and the CCW program service
provider must maintain documentation of the individual habilitation plans for at least 3 years.

For three beneficiary-months, the State agency claimed reimbursement for some services
provided to beneficiaries for whom neither the division nor Elwyn could provide individual
habilitation plans.

CAUSES OF UNALLOWABLE CLAIMS

The State agency did not ensure that it claimed reimbursement only for allowable and
documented CCW program services provided by Elwyn. Specifically, for some services, Elwyn
either did not maintain documentation to support the services billed or records indicating that
services were provided. Because of its cost reimbursement contract with the division, Elwyn
received fixed monthly payments based on an annual budget regardless of how many
beneficiaries it served. The division, through the State agency, claimed reimbursement under the
CCW program based on Elwyn’s monthly attendance reports but did not verify that the services
were actually provided or adequately documented in daily training records and progress notes.
For periods of respite care provided by Elwyn, the State agency claimed additional



                                                 6
reimbursement for community support services without verifying Elwyn’s monthly attendance
reports.

In addition, the division did not ensure and document that all CCW program beneficiaries were
assessed and certified to need an ICF/MR level of care. Specifically, for some beneficiaries, the
CCW certification section of the individual habilitation plan was incomplete and no other
documentation was available to show that the required annual level-of-care assessment was
performed. For our audit period, the State agency did not have a standard form for assessing a
program applicant’s level of care, and the CCW certification section of the individual habilitation
plan was the only documentation of the beneficiary’s need for an ICF/MR level of care. 5

The division also did not ensure that individual habilitation plans were complete and approved.
Specifically, for some beneficiaries who were not residents in Elwyn-operated group homes,
division and Elwyn case managers did not verify that individual habilitation plans were
completed and approved for CCW program services.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $903,375 to the Federal Government;

    •   require Elwyn and the division to ensure that they only claim for documented, allowable
        CCW program services;

    •   require the division to ensure and document that all CCW program beneficiaries
        approved for services have been assessed and certified to need an ICF/MR level of care;
        and

    •   require the division to ensure that CCW program services are provided only to
        beneficiaries for whom there is a completed and approved individual habilitation plan.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining recommendations. For the first recommendation, the State agency requested that we
remove three sample claims and recalculate the refund amount. For those three sample claims,
the State agency indicated that the corresponding case file contained supporting documentation
for a period after our sampled beneficiary-month. The State agency said it would be
unreasonable to assume that a beneficiary would be ineligible for CCW program services before
the documented period. The State agency’s comments appear in their entirety as Appendix D.



5
 The State agency issued a Self Care Assessment Tool in November 2005, but it was not approved by CMS until
after our audit period.


                                                      7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments on our draft report, we maintain that our findings
and recommendations are valid.

Federal regulations (42 CFR §§ 441.302(c) and 441.303(c)) require the State agency to provide
for an initial evaluation and periodic reevaluations, at least annually, of the recipient’s need for
the level of care that would be provided in an institution unless the individual receives HCBS.
Pursuant to the State’s waiver agreement with CMS, an eligible CCW program beneficiary must
be assessed and certified by a qualified mental retardation professional to need an ICF/MR level
of care every 12 months. For all three sampled items, the level-of-care assessments in the case
files did not cover the sampled beneficiary-month. For the first two sampled items noted in the
State agency’s comments, the individual habilitation plan and ICF/MR level-of-care assessment
subsequent to our sampled beneficiary-month were incomplete and not signed by a qualified
mental retardation professional. For the third sampled item, the division informed us during our
fieldwork that Elwyn indicated that the corresponding beneficiary did not reside at its facility in
the sampled beneficiary-month.




                                                 8
APPENDIXES
                                                                                   Page 1 of 2

               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service provided by Elwyn New Jersey
(Elwyn) for which the New Jersey Department of Human Services (State agency) received
Medicaid reimbursement under New Jersey’s Community Care Waiver (CCW) program during
calendar years 2005 through 2007.

SAMPLING FRAME

The sampling frame was an Access file containing 11,640 beneficiary-months of service totaling
$69,660,778 ($34,830,389 Federal share). The data for beneficiary-months of service under the
New Jersey CCW program was extracted from the New Jersey Medicaid Management
Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2005 through 2007 for which the
State agency claimed Medicaid reimbursement for services provided by Elwyn under the CCW
program. A beneficiary-month is defined as all CCW program services for one beneficiary for
1 month.

SAMPLE DESIGN

We used a stratified random sample to review Medicaid payments made for services provided by
Elwyn on behalf of beneficiaries enrolled in the New Jersey CCW program. To accomplish this,
we separated the sampling frame into three strata, as follows:

   •   Stratum 1: beneficiary-months with total payments less than or equal to $5,000—3,027
       beneficiary-months totaling $5,827,414 ($2,913,707 Federal share).

   •   Stratum 2: beneficiary-months with total payments greater than $5,000 and less than or
       equal to $10,000—8,603 beneficiary-months totaling $63,704,008 ($31,852,004 Federal
       share).

   •   Stratum 3: beneficiary-months with total payments greater than $10,000—10
       beneficiary-months, totaling $129,356 ($64,678 Federal share).
                                                                                     Page 2 of 2

SAMPLE SIZE

We selected a sample of 110 beneficiary-months of service, as follows:

   •   50 beneficiary-months from stratum 1,

   •   50 beneficiary-months from stratum 2, and

   •   10 beneficiary-months from stratum 3.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services statistical software,
RAT-STATS 2007. We used the random number generator for our stratified random sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the first two strata. After generating 50
random numbers for each stratum, we selected the corresponding frame items. We selected for
review all 10 beneficiary-months in stratum 3. We then created a list of 110 sampled items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of a 90-percent
confidence interval to estimate the overpayment associated with the unallowable services in the
beneficiary-months.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                               Sample Details and Results

                                                            No. of
                                                          Beneficiary-      Value of
                           Value of             Value of    Months         Unallowable
          Beneficiary-      Frame                Sample      With           Services
           Months in       (Federal   Sample    (Federal Unallowable        (Federal
Stratum     Frame           Share)     Size      Share)    Services          Share)
   1         3,027         $2,913,707    50       $49,858     23              $5,143
   2         8,603        $31,852,004      50   $180,751       13            $12,723
   3            10           $64,678       10    $64,678       10            $38,078
 Total      11,640        $34,830,389     110   $295,287       46            $55,944


               Estimated Value of Unallowable Services (Federal Share)
                (Limits Calculated for a 90-Percent Confidence Interval)

                         Point Estimate          $2,538,461
                         Lower Limit               $903,375
                         Upper Limit             $4,173,547
                                                                                           Page 1 of 4

       APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                       BENEFICIARY-MONTH

                                            Legend
       1    Services Not Documented
       2    Services Not Provided
       3    Level-of-Care Assessment Not Documented
       4    Individual Habilitation Plan Not Available

Office of Inspector General Review Determinations for the 110 Sampled Beneficiary-Months

         Sample
       Beneficiary-                                                                 No. of
         Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
           S1-1                           X                                            1
           S1-2
           S1-3           X                                                            1
           S1-4           X               X                                            2
           S1-5                           X                                            1
           S1-6           X                                                            1
           S1-7
           S1-8                                                        X               1
           S1-9
           S1-10          X                                                            1
           S1-11                          X                                            1
           S1-12
           S1-13          X                                                            1
           S1-14          X                                                            1
           S1-15
           S1-16
           S1-17
           S1-18
           S1-19                                        X                              1
           S1-20          X               X                                            2
           S1-21          X                                                            1
           S1-22          X                                                            1
           S1-23
           S1-24
           S1-25                          X                                            1
           S1-26
           S1-27
           S1-28
                                                                                    Page 2 of 4

  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S1-29
  S1-30
  S1-31
  S1-32
  S1-33
  S1-34
  S1-35
  S1-36
  S1-37
  S1-38
  S1-39
  S1-40
  S1-41
  S1-42
  S1-43
  S1-44
  S1-45
  S1-46
  S1-47
  S1-48            X                                                            1
  S1-49
  S1-50
  S2-1             X                                                            1
  S2-2             X                                                            1
  S2-3             X                                                            1
  S2-4
  S2-5
  S2-6
  S2-7             X                                                            1
  S2-8             X                                                            1
  S2-9
  S2-10
  S2-11
  S2-12            X                             X                              2
  S2-13
  S2-14            X                                                            1
  S2-15
  S2-16
  S2-17
                                                                                    Page 3 of 4

  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S2-18                            X                            X               2
  S2-19            X                                                            1
  S2-20
  S2-21
  S2-22
  S2-23            X                                                            1
  S2-24            X                                                            1
  S2-25            X                                                            1
  S2-26            X                                                            1
  S2-27            X                                                            1
  S2-28                            X                                            1
  S2-29                            X                                            1
  S2-30            X                                                            1
  S2-31
  S2-32                            X             X                              2
  S2-33                            X             X                              2
  S2-34                                          X                              1
  S2-35
  S2-36
  S2-37            X                                                            1
  S2-38            X                                                            1
  S2-39
  S2-40            X                                                            1
  S2-41            X                                                            1
  S2-42
  S2-43
  S2-44
  S2-45
  S2-46
  S2-47
  S2-48
  S2-49
  S2-50
  S3-1
  S3-2             X                                                            1
  S3-3             X                             X                              2
  S3-4
  S3-5             X                                                            1
  S3-6                                                          X               1
                                                                                     Page 4 of 4

   Sample
 Beneficiary-                                                                 No. of
   Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
   S3-7             X                                                            1
   S3-8                             X                                            1
   S3-9
   S3-10
  Category
                  32           12                  6              3             53
    Totals
46 Beneficiary-Months in Error
                                                                                                      Page 1 of5

                      APPENDIX D: STATE AGENCY COMMENTS 





                                           ~taf£ of N.eftr J/.er5.eJ;!
                                             D EPARTMI3NT OF H UMAN SERVICES
                               D IVISION   or: M EDICAL A SSISTANCE AND H EALTH SERVICES
Ci IRIS CI [RISTIE                                         P.O. Box 712                      J ENNIFER VELEZ
   Governor                                           Trenton. NJ 08625-07 12                 Commissioner

KIM GUADAGNO                                                                                  VALERIE HARR
  Lt. Governor                                                                                  Director


                                                  December 16, 2010

          James P. Edert
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          Office of Inspector General
          Office of Audit Services Region II
          Jacob K. Javits Federal Building
          26 Federal Plaza - Room 3900
          New York, NY 10278

          Report Number: A-02-09-01033

          Dear Mr. Edert:

          This serves as response to your letter dated October 14, 2010 concerning the
          Department of Health and Human Services , Office of the Inspector General's (OIG)
          draft report entitled "Review of Medicaid Payments for Services Provided Under New
          Jersey's Section 1915 (cJ Community Care Waiver by Elwyn New Jersey From January
          1, 2005, Through December 31,2007." Your letter provides the opportunity to comment
          on the draft report.

          The objective of this review was to determine whether the Division of Medical
          Assistance and Health Services (DMAHS) claim for Medicaid reimbursement for
          Community Care Waiver (CCW) program services provided by Elwyn complied with
          certain Federal and State requirements.

          The draft audit report concluded that New Jersey's claims for reimbursement for some
          CCW program services provided by Elwyn did not fully comply with certain Federal and
          State requirements. While 64 beneficiary-months of the 110 beneficiary-months in the
          random sample were properly claimed for Medicaid reimbursement for all CCW
          program services, the remaining 46 beneficiary-months were not allowable for Medicaid
          reimbursement for services . The draft report states that claims for unallowable services
          were made because (1) Elwyn did not ensure that it documented services billed and
          claimed reimbursement only for allowable CCW program services , (2) the Division of
          Developmental Disabilities (Division) did not ensure and document that all beneficiaries
          were assessed and certified to require ICF/MR level of care, and (3) the Division did not
          ensure that waiver program services were provided only to beneficiaries with completed


                                            New Jersey Is An Eqllal OppOrl!lm~\I Employer
                                                                                          Page 2 of5




James P. Edert
December 16, 2010
Page 2

and approved individual habilitation plans. Based upon the sample results , the auditor
estimated that New Jersey was improperly reimbursed $903,375 in Federal Medicaid
funds for CCW program services provided by Elwyn during the calendar years 2005
through 2007 audit period .

We appreciate the opportunity to provide this response to the draft OIG audit report.
Following are the auditors' recommendations and the Division of Medical Assistance
and Health Services responses:

Recommendation 1:

The OIG recommends that New Jersey refund $903,375 to the Federal
Government.

The State concurs with some but not all of the findings concerning claims for
unallowable community care waiver program services. The State respectively requests
that the amount of the refund be recalculated based upon level of care certifications
subsequently provided to the auditor and noted below in the section "Level of Care
Assessment Not Documented". Our response to each of the auditor's findings is as
follows :

UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES

Services Not Documented

Finding:

Section 1902(a)(27)(A) of the Act, 42 U.S.C. paragraph 1396a(a)(27) mandates that
States have agreements with Medicaid providers under which providers agree to keep
such records as are necessary fully to disclose the extent of the services provided to
individuals receiving assistance under the State plan . Costs must be adequately
documented in order to be allowable under Federal awards . For 32 beneficiary-months ,
the State agency claimed reimbursement for some services that were not adequately
documented.

Response:

The DMAHS agrees with the auditor's findings.

Services Not Provided

Finding :

Pursuant to section 2497 .1 of CMS's State Medicaid Manual states, Federal financial
participation is available only for allowable actual expenditures made on behalf of
                                                                                           Page 3 of5




James P. Edert
December 16, 2010
Page 3

eligible recipients for covered services rendered by certified providers. For 12
beneficiary-months, the State agency claimed Federal reimbursement for some services
that were not provided. Claims were submitted for reimbursement on behalf of Elwyn for
both respite care and community support services. However, Elwyn's records indicated
that the community support services were not provided.


Response:

The DMAHS agrees with the auditor's findings.

Level of Care Assessment Not Documented

Finding :

Pursuant to the State's waiver agreement with e MS, an eligible CCW program
beneficiary must be assessed and certified by a qualified mental retardation
professional to need ICF/MR level of care every 12 months, and the Division must
maintain documentation of the assessments for at least 3 years. For 6 beneficiary­
months, the State agency claimed reimbursement for services provided to beneficiaries
for whom the ICF/MR level of care assessment was not approved by a qualified mental
reta rdation professional for CCW program services.

Response:

The DMAHS and the Division have provided supporting documentation to the auditor for
the following cited "Missing level of Care"

Sample S2-33 and 52-34 for March of 2005 and May of 2005 respectively had a level of
care certification present in the file for 8/05 to 8/06 signed by a QMRP indicating ICF­
MR level of care. It would be unreasonable to assume that this individual was without
such deficits within the previous six month period.

Sample S3-3 for April of 2005 had a level of care certification for May 2005 to May 2006
signed by a QMRP wh ich indicates ICF-MR level of care. It would be unreasonable to
conclude that such deficits were not present one month prior.

The Division respectfully requests that these cites be removed based upon the
documentation provided mitigating the findings.

Individual Habilitation Plan Not Complete

Finding:
Pursuant to the State's waiver agreement with CMS, an eligible CCW program
beneficiary must have an individual habilitation plan completed every 12 months, and
                                                                                              Page 4 of5




James P. Edert
December 16, 2010
Page 4

the Division and the CCW program service provider must maintain documentation of the
individual habilitation plans for at least 3 years.

Response:

The DMAHS agrees with the auditor's findings.
CAUSES OF UNALLOWABLE CLAIMS

Recommendation 2:

The OIG recommends the New Jersey reguire Elwyn to ensure that it documents
services billed and claims reimbursement only for allowable CCW program
services:

Where services were not documented, 28 of the 32 cites (87.5%) reflected Daily
Training Records in day habilitation programs that conflicted with the attendance record .
The Division will provide a written statement to Elwyn regarding the requirement that
Daily Training Records must be consistent with the attendance records. In addition, the
Division will provide training to all Elwyn day training supervisors regarding
documentation of services and consistency between documents (e .g. daily training
records and attendance records).

Where services were not provided the Division notes that the Division began
transitioning to an electronic billing process in 2003. The Division identified a potential
deficit in the system in late 2007 and built in an edit in the form of a Pre claim
duplicative report that allows the Division to identify attendance records which are
submitted for respite and individual supports provided to the same individual
simultaneously. At that time the provider agency (ies) are contacted and verification is
received for the actual service rendered before billing occurs. Billing is then claimed
only for the correct service rendered. The errors noted occurred prior to the institution
of the duplicative report for these procedure codes.

Recommendation 3:

The OIG recommends that New Jersey reguire the Division to ensure and
document that all CCW program beneficiaries approved for services have been
assessed and certified to ICF/MR level of care:

Recommendation 4:

The OIG recommends that New Jersey reguire the Division to ensure that waiver
program services are provided only to CCW program beneficiaries for whom
there is a completed and approved individual habilitation plan :
                                                                                            Page5 0f5




James P. Edert
December 16, 2010
Page 5

The Division submits that in conjunction with the OMAHS. and the waiver administrators
for the other four (4) 1915(c) Home and Community Based Service Waivers, mandatory
trainings were conducted for all case managers statewide serving any of the 1915(c)
HeSS waivers. The training addressed the six basic assurances. Level of Care and
Service Planning for case managers were addressed in the training. This training was
based upon the MTraining for Case Managers: Home and Community-Based Services
(He SS) Waiver Assurances to Improve Quality' developed by the University of
Southern Maine, Muskie School of Public Service oul of a contract with e MS. Train ings
were cond ucted with case management supervisors on September 22, 2010 and
September 24, 2010. Trainings were conducted with case managers on October 19,
2010, October 21 , 2010 and October 26, 2010.        A final training is scheduled for
December 14, 201 0. The Divlsion·s Waiver Administrator will repeat this training for all
Elwyn case managers.

If you have any questions or require additional information, please contact me or
Richard Hurd at 609-588-2550.

                                               Sincerely.



                                               Valerie Harr
                                               Director


VJH:H
c: Jennifer Velez
   Richard Hurd
   Ralph F. Lollar
